      NATIONAL RAILROAD
      PASSENGER CORPOARATION




Memorandum
To:           Mark Yachmetz, Chief, Corporate Research and Strategy

From:         Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Date:         October 31, 2013

Subject:      Engagement Memo—Evaluation of Amtrak’s Business Case for New
              High-Speed Trainsets (Project 002-2014)

The Office of Inspector General is initiating an evaluation of the company’s business
case for procuring next-generation high-speed rail trainsets. Specifically, we will
determine the extent to which Amtrak is incorporating the sound business practices
that we previously reported on in OIG reports E-2013-014 and E-2013-020 in developing
its business case for high-speed rail equipment. To accomplish this objective, we will
interview various Amtrak officials and review supporting documents used to develop
the business case.

We plan to initiate this work immediately and will coordinate an entrance conference
through Amtrak’s audit liaison. The evaluation objective may be modified during the
course of our work, and we will keep you informed of any material changes in this
regard. This evaluation will be conducted in accordance with our statutory
responsibilities under the Inspector General Act of 1978, as amended.

Jason Venner, Joshua Moses, and Robert Dyer of my staff will conduct the evaluation. If
you have any questions, please contact me at Calvin.Evans@amtrakoig.gov/202-906-
4507 or Jason Venner, Sr. Director, at Jason.Venner@amtrakoig.gov/202-906-4406. Thank
you for your cooperation.

cc: Joseph H. Boardman, President and Chief Executive Officer
    Dan M. Black, Acting Chief Financial Officer
    Stephen J. Gardner, Vice President, NEC Infrastructure and Investment
       Development
    Matthew Hardison, Chief Marketing and Sales Officer
                                                                              2


Joseph H. McHugh, Vice President, Government Affairs and Corporate
   Communications
Donald A. Stadtler, Jr., Vice President, Operations
Mario Bergeron, Chief Mechanical Officer
Matthew Gagnon, Senior Director, Business Processes and Management Controls
Melantha Page, Senior Audit Liaison
